<html>
<title> - NATO: REVIEWING THE AGENDA AND ASSESSING THE POTENTIAL OUTCOMES OF THE WARSAW SUMMIT</title>
<body><pre>[Senate Hearing 114-753]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-753

    NATO: REVIEWING THE AGENDA AND ASSESSING THE 
        POTENTIAL OUTCOMES OF THE WARSAW SUMMIT

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                             JUNE 23, 2016
                               __________



       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                   Available via the World Wide Web:
                         http://www.govinfo.gov



                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-603 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Chollet, Hon. Derek, Counselor and Senior Advisor, Security and 
  Defense Policy, The German Marshall Fund of the United States, 
  Washington, DC.................................................     4
    Prepared statement...........................................     6

Brzezinski, Ian, Resident Senior Fellow, Brent Scowcroft Center 
  on International Security, Atlantic Council, Washington, DC....     8
    Prepared statement...........................................    10




                             (iii)        
 
NATO: REVIEWING THE AGENDA AND ASSESSING THE POTENTIAL OUTCOMES OF THE 
                             WARSAW SUMMIT

                              ----------                              


                        THURSDAY, JUNE 23, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:48 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker, Rubio, Gardner, Cardin, Menendez, 
Shaheen, Coons, Murphy, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. This hearing of the Foreign Relations 
Committee will come to order.
    In just a couple weeks, NATO will meet in Warsaw for the 
biennial meeting of the Alliance heads of states. Never has 
there been a more critical or opportune moment to discuss and 
recommit to the central tenets of the Washington Treaty--
collective defense, crisis management, and cooperative 
security.
    Threats to the Alliance have not diminished. Rather, they 
have grown more complex and dispersed. The Russian Federation 
has repeatedly, it would appear, intentionally bombed innocent 
civilians in Syria, begun remilitarizing the Arctic, violating 
both the Intermediate Range Nuclear Forces Treaty (INF) and the 
Open Skies Treaty. Russia adds to this continuing collection of 
abuses in the cyber domain and along NATO's eastern flank where 
Russian forces continue to occupy portions of Ukraine and 
Georgia that were invaded at least in part to keep those 
aspiring NATO members from joining the Alliance.
    Additionally, the Islamic State has begun targeting 
civilian populations and NATO members, attacking both Paris and 
Brussels.
    And finally, the flow of asylum seekers into Europe, both 
through NATO member Turkey and across the Mediterranean, has 
placed numerous pressures on NATO, its members and their 
operational capacities.
    The Alliance remains committed to and involved in the 
Resolute Support Mission in Afghanistan. Just last week, I 
called on President Obama to clearly articulate his intentions 
for U.S. troop strength for this mission prior to the summit in 
order to deliver a clear message about U.S. leadership and the 
efforts to secure a stable and democratic Afghanistan and 
generate essential support for our NATO allies in this 
endeavor.
    At the Wales Summit in 2014, the Alliance began to lay the 
groundwork for changes that will ensure NATO's preparedness to 
act. The NATO readiness action plan was approved to bolster 
NATO's air, naval, and ground forces' presence along the 
eastern flank. This included the establishment of a very high 
readiness joint task force capable of deployment within a few 
days to respond to threats against any ally. This force should 
be fully operational by the end of 2016.
    The Alliance also agreed to and had increased the scale and 
scope of military exercises to improve the preparedness in a 
combined operating environment.
    At the Wales Summit, allies also recommitted to halting the 
decline in defense spending and move towards a target of 
spending 2 percent of GDP on defense within a decade. This has 
been an issue that has been with us for a long time. We have 
got to overcome this. It is a problem with our Alliance that 
again has got to be taken seriously.
    It is encouraging that 16 of the allies have increased or 
maintained steady defense budgets since that time. However, 
only five nations currently meet the 2 percent target: the 
United States, Estonia, Greece, Poland, and U.K. The Warsaw 
Summit must call for and build upon plans to improve burden 
sharing across the Alliance.
    More importantly, the Warsaw Summit must assure a larger 
transition from simply reassuring allies to actively deterring 
aggressors; such a shift requires difficult discussions of 
force posture, readiness, authorities, and planning.
    Today we will examine the opportunities available at the 
upcoming summit. We need to address a number of issues, and I 
look forward to hearing from our witnesses today and certainly 
the questions that will follow.
    With that, our distinguished ranking member, Senator 
Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. This is a 
very, very timely hearing.
    First, we apologize to our two witnesses for the delay 
because of the business meeting. But that is the way we get our 
work done in this institution, and we were able to move a lot 
of legislation today and resolutions.
    As I said, this is very timely with the Warsaw Summit 
taking place next month.
    As I said in the comments on the resolution that we just 
passed in the committee, NATO has challenges. It has challenges 
in dealing with Russia's aggression. It has challenges dealing 
with the terrorism threats. It has challenges dealing with the 
migration issues and immigrants. It has the Warsaw Summit 
dealing with expansion of membership of countries that desire 
to become part of NATO. One is ready. Others are very much 
interested in furthering the progress towards membership with 
NATO.
    It is interesting. I would say the two most important 
organizations for security of Europe is NATO and EU. And EU is 
having a major vote today in Great Britain with Brexit, and I 
know we are all anxious to see how that turns out. I certainly 
hope that ``remain'' wins and that Great Britain remains part 
of EU. The EU clearly needs to reform, but I think it is in 
England's interest as well as Europe's interest for them to 
work out their problems collectively and not separately. So we 
will see how that goes, but it is certainly a matter of great 
international interest, what is happening in Europe today.
    But it does underscore the point, whether it is EU or NATO, 
that we too often take these institutions for granted, and it 
is important to take a moment and remind ourselves why they are 
important and why they exist and to remind ourselves we helped 
establish and build these institutions to begin with. These 
institutions are fundamental to preserving peace, stability, 
and promotion of these values that we hold dear.
    So I hope at this hearing we will have a chance to take a 
look at what we expect to accomplish in NATO.
    First, is NATO achieving the appropriate balance between 
its efforts to address Russian aggression on NATO's eastern 
borders and its efforts to address the complex security 
challenges posed by instability and violence from the south.
    Second, all NATO members must fulfill their budgetary 
commitments to dedicate 2 percent of their GDP to defense. Our 
chairman has mentioned that at every meeting we have had with a 
NATO ally, publicly, privately, and has been very consistent 
about our expectations. We are patient people. Well, maybe we 
are not that patient. But we expect to see greater progress. I 
know we have seen some progress, but it is something that is 
critically important, we believe, for NATO's future.
    Finally, we should view the aspirations of potential member 
states like Georgia, Moldova, and Ukraine. We know that there 
is going to be action taken on Montenegro. There has already 
been action taken. But in addition, that has already been done 
in regards to Georgia, Moldova, and Ukraine. What is expected 
in this summit that will help those countries in their goal to 
become our allies in NATO?
    In preparation for the summit, I am concerned about the 
potential disputes that have emerged among member states. I was 
glad to work with the chairman on a resolution we just passed 
which emphasizes unity. I hope that other legislatures across 
the Alliance will consider passing similar measures before the 
summit. Public support expressed through its elected 
representatives is the best message that we can send as Russia 
attempts to erode the support or the Alliance. One such measure 
came from the parliament of Montenegro last week which passed a 
resolution expressing strong support for NATO membership.
    Both of our witnesses today recently joined with 32 
national security leaders on an important open letter calling 
on the administration to move forward with the ratification of 
the protocols for Montenegro. I agree with this letter. It is 
time for the administration to quickly send the protocols to 
the Senate for consideration. There is no reason for delay.
    I would close with a note of caution. As we look at the 
strategic and short-term threats that face the Alliance, we can 
never stop the process of reexamining our assumptions. One of 
the reasons why a strong, agile, and flexible NATO is necessary 
for the 21st century is precisely because it is a critically 
important tool for shaping our relationship with Russia so that 
we can build a constructive relationship with Russia that we 
all seek to have. We all seek to have a positive, constructive 
relationship with Russia.
    In my assessment, that is not possible now given Russia's 
leadership, orientation, and behavior. Our goal is to seek to 
influence and change that behavior and to build a productive 
relationship. We are not looking for needless confrontation, 
and we should not take decisions which would not allow us to 
change our course if Russia changes its course.
    Do not get me wrong. We must be tough and work to establish 
a legitimate deterrent to support our friends in Europe. But we 
also should be smart in defining our long-term security 
interests of the United States. And I hope at this hearing we 
can have further help as to how we can develop those goals.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much for those comments and 
the way that you work with us on the committee.
    Our first witness is the honorable Derek Chollet who serves 
as Counselor and Senior Advisor on Security and Defense Policy 
at The German Marshall Fund. From 2012 to 2015, Mr. Chollet was 
U.S. Assistant Secretary of Defense for International Security 
Affairs where he managed U.S. defense policy towards Europe, 
including NATO, the Middle East, Africa, and the western 
hemisphere.
    Our second witness, Mr. Ian Brzezinski, currently serves as 
Resident Senior Fellow at the Atlantic Council. He has more 
than 2 decades of experience in U.S. national security matters, 
having served in senior policy positions at the U.S. Department 
of Defense and the U.S. Congress, including Deputy Assistant 
Secretary of Defense for Europe and NATO policy from 2001 to 
2005.
    We thank you both very much for being here. We thank you 
for your patience. We look forward to you summarizing your 
comments, and without objection, your written testimony will be 
entered into the record. And if you would just begin in the 
order I introduced you, I would appreciate it. Again, thank you 
for being here.

STATEMENT OF HON. DEREK CHOLLET, COUNSELOR AND SENIOR ADVISOR, 
 SECURITY AND DEFENSE POLICY, THE GERMAN MARSHALL FUND OF THE 
                 UNITED STATES, WASHINGTON, DC

    Mr. Chollet. Thank you, Mr. Chairman and Ranking Member 
Cardin and members of the committee. I appreciate the 
opportunity to be back before you to talk about the priorities 
for the upcoming NATO Warsaw Summit.
    The summit next month comes at a critical time for the 
Alliance, perhaps the most perilous moment in the 25 years 
since the end of the Cold War. With so many challenges testing 
the transatlantic partnership from the east, to the south, and 
indeed from within, Warsaw must be successful. And I very much 
commend the resolution that you passed earlier this morning 
both on NATO, as well as the resolution on Russia. I think 
those are important statements, and I hope the full Senate 
would pass those soon.
    So what would success at Warsaw look like? I will briefly 
discuss four priority areas.
    First, the Warsaw Summit needs to consolidate the 
reassurance measures that NATO has taken to shore up its 
eastern flank and to set a road map for what it can do in the 
future. Russia's aggression and reckless behavior has brought 
back serious questions about the credibility of NATO's 
deterrent. Since 2014, the U.S. and its partners have taken 
important steps to reassure our most vulnerable allies about 
our common commitment to their security. Now we must transition 
from reassurance to deterrence.
    Before the 2014 summit in Wales, NATO's actions were about 
crisis response. Today the Alliance has taken meaningful steps 
toward sustained support. The U.S. has acted with a request to 
significantly boost its funding for the European Reassurance 
Initiative and by augmenting its force presence.
    Now, it is important to note that NATO allies have stepped 
up as well, contributing a more credible deterrent force in the 
Baltics and Poland, with a proposal for four battalions 
stationed in the east on track to be approved at Warsaw.
    There has also been considerable augmentation of our 
exercises and training in Europe, as exemplified by the recent 
Anakonda exercise in Poland and the Baltops maritime exercise, 
and enhanced NATO command and control in eight new small 
headquarters in the east.
    Second, the Alliance must also grapple with the threats 
from the south and the confluence of crises emanating from the 
Middle East and North Africa.
    Now, I do not think that we can expect that this will ever 
become a NATO-only mission like Afghanistan, but NATO countries 
have a vital role to play. NATO has been training Iraqi forces 
in Jordan and appears close to conducting training in Iraq. 
Moreover, as Secretary of Defense Carter mentioned last week 
after the NATO defense ministerial, a decision will likely be 
taken at Warsaw to deploy such key NATO assets as AWACS 
aircraft to the anti-ISIL campaign.
    The Alliance also needs to continue to deepen its 
relationships with key partner countries in the region, and I 
welcome the announcement this week for Israel to open an office 
at NATO headquarters.
    Third, beyond these important military steps to enhance 
deterrence, the Alliance must reaffirm its open door. While the 
question of how much further NATO should enlarge will remain 
contentious within the Alliance, Montenegro's pending 
membership is a real opportunity to demonstrate a clear 
continued commitment to the open door.
    And this is why, as Senator Cardin mentioned, earlier this 
week I joined with over 30 of my former government colleagues, 
including by colleague to the right, to sign an open letter to 
the Obama administration and the U.S. Senate to ratify 
Montenegro's accession protocol as quickly as possible, ideally 
by the end of this year.
    But we must also be clear that this will not be the last 
word on the open door, and I believe it is imperative to 
continue to explore ways to deepen our cooperation with 
Georgia, as well as get more member states involved in helping 
Ukraine enhance its security and defense reform.
    And finally and most important, yet perhaps most difficult, 
the Warsaw Summit must be a moment to galvanize support for the 
Alliance among our publics, the kind of support necessary to 
make the required sacrifices, whether that is deploying troops 
or spending the necessary resources on defense. Indeed, it is 
fair to ask if NATO allies will not step up now, given all the 
threats that they face, when will they.
    Now, the U.S. is not immune from such pressures, and we 
have seen some question whether NATO is worth it. I think it is 
important to note that NATO continues to enjoy significant 
support among the American people. A recent poll by the Pew 
Research Center showed that 77 percent of Americans believe 
that being a member of NATO was a good thing for the U.S. I 
agree. Yet, in a climate of decreased budgets and increased 
demands globally, European members of the Alliance will need to 
be seen as carrying their fair share of the burden.
    Now, although there has been some positive movement toward 
increased European spending since the 2014 summit in Wales, 
there is still reason to be concerned. Europe remains mired in 
its own internal struggles whether from migration, the rise in 
populism, its enduring economic crisis, and the future of the 
EU itself, which only makes it harder for European leaders to 
think strategically and muster the political will for shared 
sacrifice. And depending on the outcome of today's vote on 
Brexit, this challenge may only become harder.
    Mr. Chairman, Ranking Member Cardin, members of the 
committee, these are just a few of the priorities for the 
upcoming summit. There are many other agenda items from 
boosting cyber defense to the enduring mission in Afghanistan, 
to helping bring security to Libya that I would be happy to 
discuss with you further.
    Once again, I thank you for the opportunity to appear 
before you this morning, and I look forward to your questions.
    [Mr. Chollet's prepared statemend follows:]


                  Prepared Statement of Derek Chollet

    Chairman Corker, Ranking Member Cardin, and members of this 
committee, I greatly appreciate for the opportunity to be back before 
you to discuss the priorities of the NATO Warsaw Summit. The Summit 
next month comes at a critical time for the Alliance--perhaps the most 
perilous in the quarter-century since the end of the Cold War. With so 
many challenges testing the Transatlantic partnership--with threats 
from the East, the South, and indeed from within--Warsaw must be 
successful. So what would success look like? I'd like to discuss 
briefly four priority areas.
    First, the Warsaw Summit needs to consolidate the reassurance 
measures NATO has taken to shore up its Eastern flank, and set a road 
map for what can be done in the future. Russia's aggression and 
reckless behavior has brought back questions about the credibility of 
NATO's deterrent. Since 2014, the U.S. and its partners have taken 
important steps to reassure our most vulnerable allies about our common 
commitment to their security. Now, we must transition from reassurance 
to deterrence.
    On that score, I believe the Alliance is on track. Before the 2014 
Summit in Wales, NATO's actions were about crisis response; today, it 
has taken steps toward sustained support. The U.S. has acted with a 
significant boost in funding to its European Reassurance Initiative and 
by augmenting its force presence in Europe. It is important to note 
that NATO allies have stepped up as well, creating a more credible 
deterrent force in the Baltics and Poland, with the proposal for four 
battalions stationed in the East on track to be approved at Warsaw. I 
think it is important that these front-line forces have what they need 
and are ready to fight. There has also been considerable augmenting of 
our exercising and training in Europe (as exemplified by the recent 
Anakonda and Baltops exercises), and improved readiness and 
responsiveness of the Very High Readiness Joint Task Force (NATO's 
spearhead force) and NATO's command and control in eight new small 
headquarters in the East. It is also important that NATO update its 
military planning.
    Second, along with these challenges in NATO's East, the Alliance 
must also grapple with challenges to its South, and the confluence of 
crises emanating from the Middle East and North Africa. I don't think 
we can expect that this will ever become a NATO fight--like 
Afghanistan--but NATO countries have a vital role to play. And 
increasingly we are seeing the Alliance step-up. NATO has been training 
Iraqi officers in Jordan and appears close to conducting training in 
Iraq. Moreover, as Secretary of Defense Carter indicated at last week's 
NATO Defense Ministerial, a decision will likely be taken at the Warsaw 
Summit to use NATO Airborne Warning and Control System (AWACS) 
surveillance aircraft in the U.S.-led anti-ISIL campaign. Additionally, 
NATO's deployment in the Aegean Sea has been essential in responding to 
the refugee and migrant crisis. NATO is also exploring the 
transformation of Operation Active Endeavour into a broad maritime 
security operation. Furthermore, as a recent GMF Advisory Panel Report 
for the Warsaw Summit argued, to respond to today's challenges it is 
important that the Alliance continues to deepen its relationships with 
key partner countries--and I welcome the announcement this week for 
Israel to open an office at NATO headquarters.
    As NATO considers these challenges to its East and South, it cannot 
see these issues as zero-sum. We must avoid the danger of a split in 
the Alliance between the Eastern and Southern partners in terms of 
which priority deserves more attention and resources. We must do both. 
After the end of the Cold War, when the moment of a Europe whole, free 
and at peace seemed upon us, there were questions about NATO's future 
role. During this time, a common refrain was the Alliance needed to go 
``out of area or out of business.'' Today, at a moment in which we must 
again confront threats to Europe's security order, NATO experts and 
officials are embracing a new mantra: ``in area or in trouble.''
    Third, beyond these important military steps to enhance deterrence, 
the Alliance must reaffirm its open-door policy. While the question of 
how much further NATO should expand will remain contentious within the 
Alliance, Montenegro's pending accession is a real opportunity to 
demonstrate a clear, continued commitment to the open-door. This is why 
earlier this week I joined with over 30 of my former government 
colleagues in a bipartisan open letter urging the Obama Administration 
and U.S. Senate to ratify Montenegro's accession protocol as quickly as 
possible, ideally by the end of this year. But we also must be clear 
that this will not be last word on the open-door; I believe we must 
continue to explore ways to deepen cooperation with Georgia, as well as 
get more member states involved in helping Ukraine enhance its security 
and defense reform.
    Finally, and most important--yet perhaps most difficult--the Warsaw 
summit must be a moment to try to galvanize support for the Alliance 
among our publics--the kind of support necessary to make the required 
sacrifices, whether that is deploying troops or spending the necessary 
resources on defense. Indeed it is fair to ask: if NATO allies will not 
step up now, will they ever? The US is not immune from such pressures, 
as we've seen some question whether NATO is ``worth it.'' It is 
important to note that NATO continues to enjoy significant support 
among the American people--a recent poll by the Pew Research Center 
showed that 77% of Americans believed that ``being a member of NATO was 
a good thing for the U.S.'' Yet, in a climate of decreased budgets and 
increased demands, European members of the Alliance will need to be 
seen as carrying their fair share of the burden.
    Although we have seen some positive movement toward greater 
European spending since the 2014 Summit in Wales, there is still reason 
to be concerned. Europe remains preoccupied by its own internal 
struggles--whether from migration, the rise in populism, its enduring 
economic crisis or the future of the EU itself--which only makes it 
harder for European leaders to think strategically and muster the 
political will for shared sacrifice. And depending on the outcome of 
today's vote on Brexit, this challenge may only become harder. Mr. 
Chairman, Ranking Member Cardin, members of this Committee, these are a 
few of the priorities for the upcoming summit. There are many other 
agenda items--from boosting cyber defense to possibly helping in 
Libya--that I would be happy to discuss further. Once again, I thank 
you for the opportunity to appear before you this morning, and I look 
forward to your questions.


    The Chairman. Go ahead, sir.

  STATEMENT OF IAN BRZEZINSKI, RESIDENT SENIOR FELLOW, BRENT 
 SCOWCROFT CENTER ON INTERNATIONAL SECURITY, ATLANTIC COUNCIL, 
                         WASHINGTON, DC

    Mr. Brzezinski. Chairman Corker, Ranking Member Cardin, 
members of the committee, it is a privilege to participate in 
this hearing addressing the challenges confronting the NATO 
alliance.
    NATO's summit next month portends to be its most 
significant since the end of the Cold War. No previous summit 
in this era has had to address a set of challenges as complex, 
as proximate, and as forbidding as those now present on the 
Alliance's eastern and southern frontiers.
    The most urgent of these challenges is the destabilizing 
combination of Russia's geopolitical assertiveness and growing 
military power. The decisions NATO promulgates in Warsaw must 
present a credible deterrent to Russian aggression, revitalize 
the vision of a Europe whole, free, and secure, and ensure that 
all allies share equitably in the burdens that flow from these 
objectives. These are three criteria by which to measure 
success or failure at the Warsaw Summit.
    Last winter, as you pointed out, the Alliance committed 
itself to establishing an enhanced forward presence in central 
Europe and appears to be on track to deploy battalion level 
units in each of the Baltic states and Poland. Battalions, 
roughly 800 to 1,000 troops, are small units when juxtaposed 
against the airborne, mechanized, and tank divisions deployed 
in Russia's western military district. This is an environment 
where the opponent's advantages include proximity, speed, and 
massed fire power.
    In order to be an effective deterrent, these NATO units 
must be able to survive for a limited amount of time amidst an 
intense attack. They will require reconnaissance and 
surveillance assets to mitigate the risk of surprise and air 
defense assets to enhance their survivability. They must have 
sufficient lethality to impose costs on an aggressor even if 
the expectation is not to defeat that adversary. These units 
must bristle with anti-armor capabilities and perhaps even 
their own artillery and tanks. And here I would urge you to 
look at the history of the Berlin Brigade because that was a 
heavily armed, forward-deployed unit.
    The war plans that guide these units will have to be 
integrated with those of their host nations, and that 
synchronization will have to be exercised regularly.
    The Alliance has to be postured to reinforce in real time 
these forward-based battalions. Toward that end, NATO will need 
to conduct in the very near future brigade- and division-level 
exercises to refine and demonstrate that capability.
    And NATO will need to delegate to its commanders the 
authorities necessary for them to martial in real time the 
Alliance's military assets in the event of provocation or 
aggression. There may be no time for North Atlantic Council 
deliberations.
    Moscow can be expected to closely observe the capability 
that accompanies NATO's new force posture. It will be very 
readily apparent whether or not this force is a steely 
reflection of Alliance commitment to its collective defense 
mission.
    A second critical issue that will define the Warsaw Summit 
is the Alliance's relationship with Ukraine, Georgia, and 
Moldova. The reinforcement of NATO's eastern frontier should be 
accompanied by a significant deepening of the Alliance's 
relationship with these nations, particularly Ukraine. This is 
an important requirement if we are to reanimate the vision of 
an undivided and secure Europe and erase the red line that 
Moscow has been allowed to draw across the continent.
    Toward these ends, NATO leaders at the Warsaw Summit should 
embrace Ukraine and Georgia's European and transatlantic 
aspirations. They should be given a clear road map to NATO 
membership, recognizing it will take time for them to meet the 
criteria of membership.
    The Alliance should incorporate Georgia and Ukraine into 
the security initiatives it is developing to reinforce the 
Black Sea region. Their territories could be used for anti-
submarine, air defense, surveillance, and other operations 
useful to counter Russia's militarization of occupied Crimea.
    And the Alliance should expand the security assistance it 
provides Ukraine. The time is long overdue to grant Ukraine the 
lethal defensive equipment it has requested, be it anti-tank, 
air defense, and other weapons. None of these actions would 
threaten Russia's territorial integrity, but they would 
complicate Russian military planning and increase the risks 
that would come with further aggression. Nor are they 
inconsistent with an effort to normalize relations with Russia. 
In fact, these steps are necessary to prompt a de-escalation of 
tensions between Moscow and the West.
    And finally, our NATO allies must demonstrate commitment to 
share in all the burdens that come with addressing the full 
spectrum of challenges before the Alliance. Washington has 
wisely reversed course on mistaken withdrawal of U.S. combat 
capability from Europe. It will deploy an armored brigade back 
to Europe. It committed to preposition in Europe an equipment 
set for a second armored brigade, and this is on top of two 
army brigades and all the air and naval assets the U.S. has 
long stationed in Europe.
    Reports that allies are only able or willing to contribute 
three battalions to this effort in contrast to our contribution 
is disturbing. An absence of a robust West European force 
presence along NATO's eastern frontier risks transforming a 
demonstration of Alliance resolve and determination into a 
reanimated and divisive burden-sharing issue.
    Mr. Chairman, Russia is, of course, not the only challenge 
before the Alliance today, but the threat posed by Russia is 
distinctive for its urgency and its proximity, the scale of 
Russian conventional forces, and the risk of nuclear 
escalation.
    Presenting a unified and credible commitment to the 
Alliance's core defense mission and the vision of a Europe 
whole and free must stand at the top of the NATO agenda in 
Warsaw. This will require strong leadership from the United 
States, but success in this regard will ensure the vibrancy and 
relevancy of NATO and, most importantly, reinforce the 
prospects of peace.
    Thank you.
    [Mr. Brzezinski's prepared statement follows:]


                Prepared Statement of Ian J. Brzezinski

    Chairman Corker, Ranking Member Cardin, Members of the Committee, I 
am honored to participate in this hearing addressing the challenges now 
confronting the North Atlantic Treaty Organization (NATO) and the 
decisions the Alliance will make during its summit meeting in Warsaw on 
July 8 and 9th.
    NATO is the institutional cornerstone of transatlantic security. 
This Alliance serves our national interests by leveraging the political 
legitimacy and military capacity of its European and North American 
members. It is history's most successful military Alliance, and it 
remains as relevant today as it has ever been.
    NATO's meeting Warsaw next month portends to be its most 
significant summit since the end of the Cold War. No previous summit in 
this era has had to address a set of challenges as complex, proximate, 
and forbidding as those now present on the Alliance's eastern and 
southern frontiers.
    The most urgent of these challenges is the destabilizing 
combination of Russia's geopolitical assertiveness and growing military 
power. The decisions NATO promulgates in Warsaw must present a credible 
deterrent to Russian aggression, revitalize the vision of a Europe 
whole, free, and secure, and ensure that all allies share equitably the 
burdens that flow from these objectives. These are three criteria by 
which to measure success or failure at the Warsaw summit.
                       the challenge from russia
    President Putin's ongoing invasion of Ukraine is but one element of 
a revanchist policy that he has articulated and exercised since taking 
office in 1999. His central objective is clear--the reestablishment of 
the power, territorial control, and hegemony of the former Soviet 
Union. Putin's campaign history includes Moscow's attempt to subvert 
Ukraine's 2004 Orange Revolution, the 2007 cyber attack against 
Estonia, the separatist movement in Moldova, energy embargoes against 
Lithuania and Ukraine, and the 2008 invasion of Georgia.
    His strategy is multifaceted, leveraging the full scope of Russian 
economic and political power. It integrates information warfare as well 
as extensive intelligence and criminal networks to exploit the 
weaknesses of neighboring states.
    Putin's strategy ultimately rests on a foundation of Russian 
military power. Under his personal direction, the Kremlin has driven 
forward a determined modernization of Russia's armed forces. Some $700B 
has been dedicated over this decade to expand the Russian fleet, 
introduce 5th generation aircraft, deploy new missiles, increase his 
nation's special forces capabilities, and militarize the Arctic.
    This modernization effort has been effective. It has increased the 
ability of Russian forces to rapidly mobilize and deploy in mass over 
great distances. It has integrated into Russian operations the use of 
long-range precision strike weapons--as was recently demonstrated by 
Russia's use of Kalibr cruise missiles to destroy targets in Syria. It 
features a significant investment into Russia's tactical and strategic 
nuclear arsenals. And, it has yielded a military more capable of 
conducting sophisticated combined arms operations.
    These capabilities have been demonstrated and refined through an 
aggressive array of large scale exercises, a good number of which have 
involved between 100,000 and 160,000 personnel. They feature rapid 
deployments over Russia's vast territory and the integration of nuclear 
and conventional warfare. Among the more notable exercises have been 
no-notice snap drills that have simulated the seizure of territory of 
NATO allies and partners across the Baltic Sea, as far West as Denmark.
    The contingency the Alliance's political leadership must address 
today is Russia's ability to rapidly mobilize and deploy significant 
forces for the seizure of limited swaths of territory along its 
periphery. NATO must counter Russia's increased ability to undertake 
such a mission and complete its execution before the Alliance's 
political decision-making body, the North Atlantic Council, has had a 
chance to achieve consensus on what had transpired and whether or not 
it would be worth the costs and risks of reversing that aggression.
                  defining success at the nato summit
    Addressing this contingency and the geopolitical ramifications of 
Moscow's ambitions and military power has emerged as a, if not the, 
principal focus of this July's NATO summit. The strategy and actions 
Alliance leaders promulgate in response to this challenge must a 
present credible deterrent to Russian aggression, revitalize the vision 
of a Europe whole, free and secure, and ensure that all allies 
contribute equitably to the missions that flow from these objectives.
          assessing nato's emergent forward enhanced presence
    Last winter, the Alliance committed itself to establish an 
``enhanced forward presence'' in Central Europe. NATO leaders appear to 
be on track to approve plans for the deployment battalion level units 
in each of the Baltic States and Poland and an improved force posture 
in the Black Sea region.
    Battalions--roughly 800-1000 troops--are small units when 
juxtaposed against the divisions of Russian airborne, mechanized, and 
tank units deployed in Russia's Western Military District and the 
sophisticated aircraft, air defense systems, helicopters, ships, 
submarines, and missiles that reinforce them.
    If these NATO battalions are to be an effective deterrent against a 
force of this magnitude, they must be able to survive for at least a 
limited amount of time amidst an aggressive attack. They must have 
sufficient lethality to impose costs on an aggressor--even if the 
expectation is not to defeat that adversary. And, the Alliance must 
demonstrate readiness and determination to quickly reinforce these 
battalions. To be credible, NATO's forward enhanced presence will 
require the following:


   Intelligence, Surveillance, and Reconnaissance (ISR) Assets: These 
        forward deployed units will need ISR to mitigate the advantages 
        proximity provides Russian forces. Advance warning will be key 
        to minimizing the risk of surprise by aggressor forces, 
        enabling time needed to hunker down and move to defensive 
        positions.

   Air Defense: In an environment where air and missile threats are 
        significant and proximate, air defense, and possibly missile 
        defense, capabilities will be needed to protect these 
        battalions.

   Lethality: As previously noted, such limited deployments alone 
        cannot be expected to defeat the large combined arms assault 
        Russia can unleash across its border. But, these units can 
        bristle with the firepower necessary to impose costly losses 
        upon an aggressor. These battalions will need robust anti-armor 
        capabilities, perhaps even their own artillery and tanks.

   Integrated NATO-Host Nation War Plans: The war plans that guide 
        these forward deployed elements will have to be integrated with 
        those of their host nations. This is to ensure full 
        synchronization of effort by NATO and national forces in time 
        of crisis and conflict. Exercising this integration is critical 
        not only to refine these plans, but also to demonstrate combat 
        readiness to an adversary.

   Reinforcement: The Alliance must be postured so that it can 
        reinforce on short notice these forward based assets. Some 
        progress is being made on this front. This month, two large 
        multinational exercises featured scenarios focused on the 
        logistical and combat challenges of reinforcing forward 
        deployed forces amidst a high intensity conflict. Poland hosted 
        ANEKONDA 16, the largest air, ground, and sea exercise 
        conducted by NATO allies and partners in Central Europe. It 
        featured 31,000 troops, including 14,000 U.S. personnel. The 
        U.S. Sixth Fleet hosted BALTOPS 16, a large scale multinational 
        maritime exercise demonstrating the Alliance's capability to 
        secure sea lines of communication and conduct amphibious 
        operations in the Baltic Sea.
          These exercises were important first steps, but they were 
        nationally hosted, not NATO hosted, exercises. The Alliance 
        will have to launch in the near future brigade and division 
        level exercises focused on the plans it finalizes for its 
        forward enhanced presence.

   NATO Command Authority: In an environment featuring an aggressor 
        whose advantages include proximity, speed, and massive 
        firepower, NATO must delegate to its commander the authorities 
        necessary for them to marshal in real time Alliance military 
        assets in the event of provocation and/or aggression. The North 
        Atlantic Council is not likely to have the decision-making 
        speed necessary for the full spectrum of contingencies these 
        forward deployed assets must address.
          During the Cold War, NATO's generals and admirals were 
        entrusted with the authority to deploy forces and engage 
        opponents in analogous scenarios. This trust needs to be 
        returned to the Alliance's military chain of command.


    Over the decades of that by gone era, the Berlin Brigade served as 
an effective deterrent. It was a forward-based fighting force equipped 
with tanks, artillery and armored personnel carriers. A massive 
deployment of NATO forces on the border between the two Germanys stood 
ready to reinforce the Berlin Brigade on a moment's notice. These 
forces were regularly exercised to make clearly evident the war plans 
the Soviets would ``trip'' into action if the Allied outpost in Berlin 
was attacked.
    Moscow will closely observe the capability and preparations that 
accompany NATO's emergent enhanced forward presence. It will be will be 
readily apparent whether or not this force is a steely reflection of 
Alliance commitment to its collective defense mission.
                       rolling back the grey zone
    A second critical issue that will define the Warsaw summit is 
NATO's relationship with Ukraine, Georgia and Moldova. Russia's 
incursions into Ukraine and Georgia and its continued occupation of 
Moldova's Trans-Dniester region is a direct threat to the vision of a 
Europe whole, free, secure, and at peace. Putin's aggression against 
these countries was triggered simply by their desire to join the West.
    To date, the West's responses to this aggression has not caused 
President Putin to change course. His forces continue to occupy 
Ukrainian, Georgian, and Moldovan territory. In Crimea and Eastern 
Ukraine, they are being reinforced and in the latter they continue to 
attack Ukrainian forces. In Georgia, Moscow has been encroaching upon 
Georgian territory through limited land grabs, informally called 
``borderization.''
    The failure of the West to more forcefully leverage its economic 
weight, political power and security assistance against this aggression 
has allowed a grey zone to emerge in Europe's strategic landscape 
consisting of nations whose efforts to integrate into the Euro-Atlantic 
community continue to be challenged by Moscow's territorial and 
hegemonic aspirations.
    A reinforcement of NATO's eastern frontier should be accompanied by 
a significant deepening of the Alliance's relationship with these 
nations, particularly Ukraine. The NATO summit presents an opportunity 
to reanimate the vision of an undivided and secure Europe and erase the 
red line Moscow has been allowed to redraw across the continent.
    Toward this end, NATO leaders at the Warsaw Summit should embrace 
Ukraine's and Georgia's European and transatlantic ambitions, including 
their desire to join NATO. These nations should be given a clear 
roadmap toward that goal, recognizing it will take them time to meet 
the political and military criteria necessary for membership.
    Second, the Alliance should incorporate Georgia and Ukraine into 
the maritime, air, and ground force initiatives it is developing for 
the Black Sea region. Their territories would be useful for anti-
submarine, air defense, surveillance and other operations necessary to 
counter Russia's effort to leverage its occupation of Crimea into an 
anti-access/area-denial bastion spanning across that sea. The firsthand 
experiences of Ukrainian and Georgian troops defending against Russian 
battlefield tactics should be integrated into the Alliance's training 
and exercises.
    Third, the Alliance should expand the security assistance it 
provides Ukraine. The time is long overdue to grant Ukraine the 
``lethal defensive equipment'' it has requested, including anti-tank, 
air defense and other weapons. Russia's large scale exercises, the base 
it is building next to Ukraine's eastern frontier, and its military 
build-up in Crimea underscore the challenges Kyiv would face should 
Putin decide to drive deeper into Ukraine, a possibility that cannot be 
discounted in light of Moscow's rhetoric and belligerent military 
posture.
    NATO should also conduct exercises and ISR operations in Ukraine to 
signal solidarity, train the Ukrainian armed forces, and provide them 
better situational awareness.
    None of these actions would threaten Russia's territorial 
integrity, but they would complicate Russian military planning and 
increase the risk that would come with further aggression deeper into 
Ukraine. They would help erase the red line that Moscow has been 
allowed to draw across Europe.
    Failure to transform the NATO-Ukraine partnership in this way will 
not avoid conflict with Russia, it will only ensure that Ukraine 
remains weak in the face of Russian aggression. That is not only an 
enticement for Putin's revanchist ambitions, it is yet another recipe 
for an enduring military confrontation with Moscow.
                      transatlantic burdensharing
    Finally, in order for the Warsaw Summit to be a success, our NATO 
allies must demonstrate commitment to share in all the burdens that 
come with addressing the full spectrum of challenges before the 
Alliance.
    Today, as part of its response to Russian aggression and other 
military provocations, Washington has reversed course on a mistaken 
withdrawal of U.S. combat capability from Europe. It deployed an 
armored brigade combat team on a persistent, rotational basis to 
Central Europe. It committed to preposition in Europe an equipment set 
for a second armored brigade. That is on top of the two army brigades 
and the air and naval assets the U.S. has long stationed in Europe, not 
to mention the ongoing construction of the European Phased Adaptive 
Approach missile defense system.
    It will be important for Europe, particularly Western Europe, to 
make a significant contribution to the Alliance's forward enhanced 
presence. Reports that Germany, Canada and the United Kingdom are the 
only allies able and/or willing to contribute battalion level elements 
to this effort is disturbing. France (whose generals command NATO's 
second strategic command, Allied Command Transformation), Italy, Spain 
and others need to make similar contributions. Failure to incorporate a 
robust West European element into NATO' enhanced forward presence would 
risk transforming a needed demonstration of Alliance resolve and 
determination into a reanimated and divisive issue of burden-sharing.
                                closing
    Mr. Chairman my remarks focused on the NATO-Russia relationship. 
The Warsaw summit, of course, includes other pressing matters, 
including the Alliance's mission in Afghanistan and chaos that defines 
the Alliance's southern front. But, the threat posed by Russia is 
distinctive for its urgency and proximity, the scale for Russian 
conventional forces, and the risk of nuclear escalation.
    For these reasons, presenting a unified and credible commitment to 
the Alliance's core defense mission and the vision of a Europe whole, 
free, and secure must stand at the top of the Summit agenda. This will 
require strong leadership from the United States, but success in this 
regard will not only ensure the vibrancy and relevancy of NATO, it will 
reinforce the prospects of peace.


    The Chairman. Thank you both for your testimony.
    I am going to reserve my time for interjections and defer 
to the ranking member.
    Senator Cardin. Well, thank you, Mr. Chairman, and thank 
both our witnesses for their contribution to this hearing.
    I do note, Mr. Chairman, that we do have the Montenegro 
Ambassador with us today. Welcome, Mr. Darmanovic. It is 
wonderful to have you here.
    I want to sort of focus in on the Russian issue for one 
moment, if I may, on the eastern front. Russia, of course, 
regularly performs military exercises to show its force. My 
staff tells me that included 80,000 personnel, 12,000 pieces of 
heavy equipment, 65 warships, 15 submarines, 220 aircraft.
    Recently NATO conducted war games in eastern Europe last 
month that included 31,000 troops, far less than what Russia 
does in its military exercise. And there were comments made by 
the German foreign minister characterizing those exercises as 
war mongering. And Bulgaria refused to participate in NATO's 
fleet in the Black Sea.
    So my question is, do we have unity here? Russia 
understands strength. Do we have unity within NATO to recognize 
that Russia represents a real threat to NATO's security?
    Mr. Chollet. Senator, I can start with that. I think we do 
have unity, but I do not think we can just assume it. And I 
think the examples you cited are very good because they do show 
that there is politics in all these countries. The Russians are 
playing quite aggressively in all of these countries in the 
media markets and by funding opposition groups to try to stir 
up these kinds of reactions.
    I think it is just important to note that a lot of the 
measures that NATO has taken in the last 2 years since the 
Wales Summit that both Ian Brzezinski and I mentioned were 
things we were not dreaming of 3 years ago. I mean, they were 
very much in response to Russia's aggression: the four brigades 
that I think will be agreed to in Warsaw, the U.S. augmentation 
of our presence, for the first time German troops in Poland as 
part of the BJTF. So I think this is significant.
    But there is going to be an enduring question that we are 
going to face that Warsaw will not answer, that we are going to 
have to face moving forward. How much is enough to achieve 
deterrence? It is not realistic that we will ever achieve what 
you would call deterrence by denial, having equal amount of 
forces on either side of the border. And what Defense Secretary 
Carter has talked about is the need to have a new kind of 
playbook. What we are most worried about--and I am sure we will 
get into this later--is hybrid warfare, not a Russian invasion 
en masse across the borders of the Baltics or into Poland but 
something that looks more like Ukraine, which is harder to 
figure out initially, but deeply destabilizing and very 
dangerous.
    Senator Cardin. Mr. Brzezinski, I want you to respond, but 
let me just add at least my concern of what is happening 
between Russia and our NATO allies. When you look at Russia's 
activities of aggression in Ukraine, in Moldova, Georgia, they 
are intentionally causing an unrest supported by military that 
causes our NATO allies to say, gee, are these countries ready 
for membership in NATO. So in a way, NATO is encouraging 
Russia's aggression because if they continue their engagement, 
it is less likely that NATO will expand sooner to more members.
    So is NATO aware of this? Does NATO recognize that 
countries such as Georgia that really want to become members of 
NATO, that they are falling into a Russian trap to be more 
aggressive because it means it is less likely they will get 
membership?
    Mr. Brzezinski. Well, to answer your last question, there 
is general awareness, but also an unwillingness to recognize 
the reality that Russia uses a full spectrum strategy to 
undermine the preparedness of NATO aspirant nations and to 
create division and skepticism within the Alliance about the 
readiness of those aspirants for membershiip. So there is no 
question that there is a hybrid dimension to President Putin's 
strategy to fulfill his ambitions to recreate Moscow's control 
over the former Soviet space.
    But with that said, I think it is important while we focus 
on the hybrid threat to also remember that Russia's strategy of 
hybrid warfare rests on a foundation of conventional and 
nuclear military power. That is what it falls back on.
    If you look at the invasion of Ukraine, and specifically 
the seizure of Crimea, that was complemented by a massive 
100,000 to 150,000-man exercise in Russia's Western Military 
District along Ukraine's eastern frontier. And while we 
remember Crimea as a hybrid engagement because it featured 
``the little green men,'' we often forget that soon after those 
little green men started their operations, they were followed 
by 20,000 to 30,000 Russian special forces. So that event was 
actually pretty conventional. That is an important point to 
remember.
    My fear, on your point about unity, is that while we do 
have some unity, I am not sure we have sufficient unity. That 
is reflected in the debate we have seen recently in the EU over 
the sanctions imposed on Russia. Yes, the EU is on course to 
extend those sanctions by 6 months, but the debate between the 
west Europeans and the central Europeans has intensified on 
this subject, and that to me is disconcerning.
    Look at the difficulty the Alliance has had in generating 
the forces for its forward enhanced presence. The fact that the 
Alliance could only get European nations to come up with two 
battalions to me is troubling. The forward enhanced presence 
was meant to extend from the Baltic Sea all the way down to the 
Black Sea, and include Romania and Bulgaria. We are not getting 
a forward enhanced presence in Romania and Bulgaria because our 
allies could not generate another two battalions. We do not 
have the will or the capability to come up with those 
battalions. That is disturbing.
    And finally, sir, regarding your point on exercises, not 
only have Russian exercises been massive, but there have also 
been SNAP exercises that I think are disturbing. Why? Because 
they demonstrate the Russians' ability to mobilize rapidly 
large amounts of force and to deploy them with great speed. We 
have not conducted a NATO SNAP exercise since the end of the 
Cold War. I do not think NATO commanders have the authorities 
to even do a SNAP exercise. That has to be changed.
    Senator Cardin. Thank you. I appreciate it.
    The Chairman. Thank you.
    If I could follow up, I am going to have my first 
interjection.
    On the unity issue, you know, we go to the Munich Security 
Conference each year. We obviously have a great friendship with 
Germany, a lot of investment in our country by German entities. 
So a good relationship.
    I will tell you the fact that Germany, the powerhouse of 
Europe, the driver of European policy, spends 1.18 percent of 
their GDP on NATO, I find it to be highly offensive. And you 
know, when you look at the fact we have just under 40,000 U.S. 
troops based in Germany, so if you are sitting there and the 
United States has 40,000 troops in your country, you have no 
concerns. And by the way, the majority of people in Germany 
believe that they should not take part in providing Article 5 
protection for other NATO countries.
    So, I mean, I would like greater explanation as to whether 
we really have unity. I mean, in essence, we are the provider 
of security services. They are the consumer of security 
services. We have nearly 40,000 troops on the ground in 
Germany, and they cannot contribute 2 percent of GDP to defense 
spending, the economic powerhouse of Europe. I got to tell you 
I find that offensive.
    And I would just like for you all to respond as to how we 
push these countries. Most experts do not believe they are gong 
to get to 2 percent anytime soon. I think you all would agree 
with that. So how do we deal with this?
    And by the way, it may be one of the moderating forces that 
keeps these sanctions from continuing to go in place on the 
second round. I do not know if that is true or not, but we will 
see. The second part--I said maybe that is not true. The rest 
of it if you would respond to it, I would appreciate it.
    Mr. Chollet. Well, Senator, I share your frustration on 
defense spending in Europe, in Germany specifically, but more 
broadly among all but five of the members, and really one of 
those five is Greece. That is a different story.
    The Chairman. That is because their economy imploded and 
all of a sudden----
    Mr. Chollet. And we have had the same conversations, I am 
sure, you and I when I was in government and now that I am out 
of government with our German colleagues.
    I think it is important to note in the specific case of 
Germany, obviously, they have their own difficult history that 
they grapple with when it comes to questions of their military. 
It was only 20-some years ago that Germany deployed its 
military outside of Germany for the first time since World War 
II, which was in the Balkans. And Germany has been a partner of 
ours in Afghanistan for 10-plus years.
    And they have a very active defense minister, who I know 
you know, who is trying very hard to push that bureaucracy and 
push the German parliament to spend more on defense, modernize 
its capabilities, and it is a good thing. So we want to 
encourage that because there are forces within Germany who want 
what we want, which is greater capability, a Germany that is 
more willing to project its power militarily. But we are not 
there yet, and there are counter-forces, some of those counter-
forces aided and abetted by the Russians, to push back on those 
efforts.
    I think we have to share our realism about the odds of 
having all of the Alliance get to 2 percent. But I think, 
nevertheless, we have to keep pressing this very, very hard. 
Ultimately it is going to be a political decision, and that is 
one of the frustrations I certainly had in government because 
defense ministers and security experts would get together and 
everyone would agree vigorously that they need to spend more on 
defense, but then they would go back to their capitals and get 
shouted down by their finance ministers and others. So it is 
just a fight we need to keep fighting.
    The Chairman. Well, we have nearly 40,000 troops in their 
country. They feel no threat. They feel no threat. They are 
living off of us, and I just find it offensive. And again, I 
could see some of the other countries that have had 
difficulties. Germany, with them being the leading entity in 
the European Union right now--I just find it more than 
offensive. And it is a lot of rhetoric. The action is not 
there. You say bureaucracy. It is a vote. It is a vote of their 
parliament. And the majority of the people there do not believe 
they should respond in protection of other allies. I just think 
they have got a lot of work to do, and I am going to keep 
hammering on this. They are being laggards. They are laggards 
as it relates to NATO. Laggards. And I just do not think we are 
strong enough in our discussions with them.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both for being here.
    So NATO is an alliance not to counter Russian aggression. 
It is an alliance to counter all threats, all aggression. In 
fact, the only time that Article 5 has been operationalized is 
in defense of an attack against the United States by Al Qaeda.
    So here is just a simple question. We spend all of our time 
talking about Russia. What is the greater threat to NATO today? 
Is it Russia or is it ISIL and Islamic extremism?
    Mr. Brzezinski. Senator, I would say without question it is 
Russia because Russia has the force buildup on the Alliance's 
eastern frontier. It has demonstrated state-on-state 
aggression. It has invaded two countries in the last decade: 
Ukraine and Georgia. It continues to occupy part of Moldova. If 
you look at the pattern of Russian military provocations, they 
have become more brazen and more risky over the last 2 years. 
It has not been steady state. It has steadily escalated and 
become more confrontational.
    I am not talking just about the Donald Cook being buzzed by 
aircraft. I am talking about SNAP exercises in which they 
simulate the seizure of all the islands of the Baltic Sea. I am 
talking about nuclear threats and exercises they conduct that 
involve integration of nuclear and conventional operations.
    So, yes, ISIL is chaos. It is horrible. The violence there 
and to the south is disturbing, but I do not think it presents 
the same existential threat that Putin's provocations and his 
geopolitical aspirations present the Alliance.
    Senator Murphy. So I think that is very interesting answer. 
So as you look out over the next 24-month time horizon or you 
pick your time horizon, 24 months, 5 years, you think it is 
more likely that you are going to have a Russian attack inside 
the NATO alliance than it is to have a large-scale or series of 
large-scale ISIL attacks. That is a slightly different way I am 
asking the question, but it is more specific. I mean, you think 
there is a greater threat of Russia moving across the border of 
NATO than there is of major attacks from violent extremist 
groups.
    Mr. Brzezinski. No. I would say that there is--almost 
guaranteed, almost certain to have some sort of terrorist 
attack against a NATO ally by ISIL. That is certainly a higher 
probability than a Russian maneuver to seize Warsaw or Berlin. 
Much higher.
    But what I am worried about is the buildup that Russia has 
on its western frontier, the provocative nature of its military 
operations that increases the likelihood of inadvertent 
conflict. And we had a small taste of that in southern Turkey. 
We were very lucky that that engagement between the Turkish air 
force and the Russian air force occurred against an 
expeditionary Russian force and not well defended, that was 
very much on its own. It could have been a whole different ball 
game if that shootdown had happened in a highly militarized 
area such as the Baltic area. So I am not worried about an 
intentional attack against NATO. I do not think that is in 
Putin's plans, but I am worried that his activities do raise or 
increase the risks of inadvertent conflict with all the 
escalatory dynamics that would come with it.
    Senator Murphy. Mr. Chollet, I think that is an interesting 
answer. I do not have it, but I think--well, tell me your 
thoughts.
    Mr. Chollet. While completely agreeing with the threat that 
Russia poses, I think the answer to your question is it is 
really both. One of the challenges, getting back to this 
question of unity that we have within the Alliance, is a 
growing divide between those countries who are most exposed to 
the threat to the east and those countries who are most exposed 
to the threat to the south. And from a U.S. perspective, I 
really think when we look at our interest in a transatlantic 
relationship that is strong and a Europe that is whole, free, 
and at peace, it really has to be both. And that is why, as I 
said in my statement, the Warsaw Summit has to show meaningful 
steps that the Alliance is addressing threats from both the 
south and the east.
    One of the challenges NATO has is when we look at the tools 
of the Alliance. They are actually better for the challenges of 
the east in deterring Russia than they are to the south. And 
one of the things NATO has struggled with is how actually to 
address the threats to the south, and some of that is by 
actually acting within the Middle East, as I mentioned earlier, 
in Jordan and Iraq or contributing capability to the anti-ISIL 
fight. Some of that is maritime mission, which NATO is involved 
in now, to help with the migrants coming up through the sea. 
But that is going to be a real challenge for the leaders when 
they get together is how they show a signal of resolve to the 
east, but then also determination to deal with threats to the 
south.
    Senator Murphy. I thank you both for that answer. And I 
agree it is both. But we have major challenges with the 
Europeans today with respect to their counterterrorism 
surveillance and intelligence operations. They see those 
questions about how they work together to try to catch bad guys 
within Europe as a question that is often separate from the 
conversation about the future of NATO.
    And so I do not disagree with almost any of the 
recommendations that you have made vis-a-vis the threat from 
the east, but I would hope that part of the discussions about 
the future of NATO is standing up a truly continent-wide 
counterterrorism capability that is fully integrated with ours 
that is seen as part and parcel of our mission under the 
umbrella of NATO. If it is viewed that way, I think it is much 
more likely that some of the tough decisions that are necessary 
will actually get made.
    I think you are right that it is both, but I think we tend 
to spend almost all of our time thinking about NATO through the 
prism of the Russian threat when we might be able to get more 
done on the counter-ISIL threat if it was viewed through this 
construct.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine. Oh, I am sorry. Senator 
Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Kaine, I thank you very much for that. I appreciate 
that.
    And thank you to the two witnesses for your time and 
testimony today.
    A couple of weeks ago, we had a hearing with Deputy Defense 
Secretary Carpenter talking about a number of issues. I asked 
him about the RAND study that came out about 4 or 5 months ago 
that stated that Russian forces could overrun NATO's Baltic 
states in less than 3 days, and Deputy Secretary Carpenter 
basically said, yes, that is true.
    General Hodges yesterday, I think it was reported, made 
statements that Russia could overrun the Baltic states within 
36 to 60 hours.
    Mr. Carpenter mentioned that there were some studies and 
analysis that they had conducted at the Department of Defense. 
Are either of you familiar with the studies or analysis that 
the Defense Department has done along the lines of the RAND 
studies?
    Mr. Chollet. Senator, I am aware that they were doing those 
studies, but I was not a participant.
    Senator Gardner. You have not had a conversation with them 
to see what exactly and where the analysis----
    Mr. Chollet. My understanding is, as I think Secretary 
Carpenter mentioned to you, it is not different than what 
outside groups, RAND and others, have been doing to try to do 
tabletop exercises to run scenarios about what that would look 
like.
    Senator Gardner. We spent a lot of time in Europe recently 
talking about sort of the muscle memory of what it means to 
protect Europe, to fight a war in Europe. We talked about, as 
our focuses turned to the Middle East and intelligence needs in 
the Middle East and terrorism, the intelligence loss that we 
have in Europe when it comes to Russia. Would either of you 
like to expand on that and what we are doing to fill the gap 
when it comes to our sort of blind spots in intelligence in 
Europe?
    Mr. Brzezinski. When it comes to intelligence, most of 
those intelligence, surveillance, and reconnaissance (ISR) 
assets that we once deployed against the Soviet Union and for a 
limited time against Russia have been redeployed out of the 
EUCOM area of operations, and probably rightfully so. But it 
has left us with our eyes sort of half closed, and as a result, 
we are not really as aware of Russian movements as we were, so 
to speak, during the Cold War against the Soviet Union. 
Russia's SNAP exercises have underscored this blind spot 
because they have often caught EUCOM and our NATO allies off 
guard.
    For example, I was in Poland a year and a half ago, and 
there was an exercise in Kaliningrad, that enclave between 
Lithuania and Poland. It involved 10,000 troops, 50 ships, 250 
APCs. We were caught surprised. The exercise I mentioned about 
a year ago in which they simulated the seizure--the Russians 
did a 40,000 to 50,000-man exercise simulating the seizure of 
parts of northern Norway, the islands Aland off Finland, 
Gotland off Sweden, and Bornholm off Denmark. It was a surprise 
to us.
    That is why I mentioned in my testimony the importance of 
bringing increased ISR capabilities, intelligence, 
surveillance, and reconnaissance capabilities, for these 
forward-deployed forces because it is going to be essential to 
give them as much time as possible to hunker down in light of 
the Russians' ability to leverage proximity for surprise.
    Senator Gardner. And do you see this--I am sorry. Go ahead. 
I am sorry.
    Mr. Chollet. Well, Senator, just briefly I concur 
completely that we lost a lot of muscle memory in the 25 years 
since the end of the Cold War that we are slowly trying to 
build back.
    Intelligence is a key gap. One of the things I hope will be 
agreed to in Warsaw is a decision by NATO to create a new 
senior leadership position within the Alliance, an Assistant 
Secretary General for Intelligence, which can help bring 
together the various pieces of intelligence capability that 
NATO does have, but more importantly try to augment that over 
time. That is a U.S.-proposed initiative. So I am hopeful that 
at Warsaw we will see some success there.
    Senator Gardner. And so the $3.4 billion that we have in 
the fiscal year 2017 budget for the European Reassurance 
Initiative--how much of that can address this need? Is that 
enough? Is it working?
    Mr. Brzezinski. That money is largely allocated for forces. 
There is some sliver of some funding for ISR in there, but 
probably not enough to address the requirements. It cannot just 
be U.S. ISR. It has to also be--as the chairman has mentioned, 
it has got to be European ISR. They have to make those 
investments too.
    Senator Gardner. And do you see any movement that they are 
beginning--I mean, when we talk about the need to fulfill their 
obligation to NATO in the funding, do you see any movement on 
ISR and others?
    Mr. Brzezinski. There is some good news over the last 2 
years, and Derek deserves some commendation for that. Spending 
has actually reversed its long downward trend. It is now upward 
in Europe. The Secretary-General came out, I guess a week or 2 
ago, and said that of NATO allies, 20 of them in 2016 are 
spending more money than they did last year. In the overall, it 
is about a point and a half up, not enough, not fast enough, 
but at least going in the right direction. And some of that 
investment is going into ISR.
    Mr. Chollet. Just to add to that, the 2 percent GDP metric 
is one that we talk about the most, but within that is an 
agreement to spend 20 percent of your new money on 
modernization, of which ISR is the central part. And that is 
actually a better story than the 2 percent. So even though we 
are not where we need to be, even close to that, on the 2 
percent, we are actually looking all right on the 20 percent 
across the Alliance.
    Mr. Brzezinski. If I could add. If there was a second key 
area that has to be a focus on how money is spent, it is to 
increase the readiness of the force pool in Europe. The force 
pool has degraded over the last decade and a half 
significantly. The ready forces that the Europeans have are now 
stretched thin with the operations they have underway, be it in 
Afghanistan or in Africa. The Europeans may not be as ready as 
we would like them to be to rapidly mobilize and deploy 
battalion or brigade level assets to the east to reinforce 
NATO's enhanced forward presence in the event of a crisis. The 
readiness pool of European forces is a real concern.
    Senator Gardner. Now, Mr. Chairman, I am sorry. Do you mind 
if I have one more question?
    The Chairman. Go ahead.
    Senator Gardner. I think you have talked about this, when I 
was trying to smack in to smash in other hearings today in 
between those hearings, the Brexit vote that is taking place. 
Obviously, they would stay and remain in NATO, but what impact 
do you see that having should they leave the European Union, if 
any at all, on NATO?
    Mr. Chollet. Well, I think there is no question that it 
would--because if they were to choose the European Union, it 
will mean for the next several years Europe will yet have 
another existential question before it. And unfortunately, it 
will mean less bandwidth for all of what we are talking about 
this morning because political leaders, publics will be 
consumed by the future of the EU project and, therefore, have 
less energy to deal with the issues that we have been talking 
about today.
    Now, oddly, it may make NATO more important, and it may 
help the Brits, oddly enough, to want to be closer to NATO to 
show that they are still part of an alliance. So it could 
change the incentives that way. But I think it is very hard to 
see this as anything but negative for our security interests in 
Europe.
    Mr. Brzezinski. I agree completely with Derek. I should add 
another dimension. An EU that is minus the U.K. is likely to be 
a slightly less transatlantic oriented EU. It is going to be an 
economically weaker EU. It is going to be probably a little bit 
more of a divisive EU. Most importantly from NATO's 
perspective, it is going to be less of an Atlanticist EU. And 
to have a community of nations like that, who make up much of 
NATO, to have that Atlanticist orientation diluted cannot be a 
net gain for the Alliance. It is actually a net loss.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and thank you to the 
witnesses.
    My perception--and you know, I think one of the virtues and 
vices of this committee is you kind of really dive into the 
regions where you are assigned, and my committee is more Middle 
East and Latin America. So I am always fascinated by these 
hearings about Europe because I really learn, and I am going to 
have you educate me a bit.
    But my perception, as an educated layperson watching the 
Russian situation, is that the economy is horrible and Putin is 
the kind of leader than when there are threats because things 
are not going well internally, he is a little more likely to be 
externally adventurous.
    There are elections coming up in September, legislative 
elections in Russia. Are you at all worried that the next 90 
days might be a period where there might be a little more 
likelihood of something being a little nutty on the adventurism 
side from Russia, on an aggressive side because of the need to 
try to gain torque in this electoral campaign, or does the 
election look fairly set right now and they would not need to 
worry about that?
    Mr. Chollet. Very briefly. I am sure we agree on this. The 
answer is yes. I am worried, and it is not just the election. 
It is actually how Russia responds to the Warsaw Summit because 
if we succeed in having the Warsaw Summit be a show of unity, a 
demonstration that the NATO has resolved in augmentation of the 
deterrent, Putin may feel the need to respond in some way to 
show that he is still willing to do what it takes. And so I 
think it is already a pretty perilous period, but I think given 
the summit, given their elections, given perhaps an EU that is 
mired in an existential crisis about Brexit, I think it is an 
opportunity for Russia's adventurism to come back.
    Mr. Brzezinski. I agree but allow me to add another angle. 
First, I do not think Putin's reelection is much in doubt. He 
has a good grip on the polity there and the electoral dynamics. 
It is not even an election. It is a recoronation.
    Second, actually the economy is kind of going in his 
direction due to a slight increment in gas prices. That takes a 
little bit of economic pressure off of him.
    But I do think that Putin will be looking at how to 
discredit the Alliance's decisions at Warsaw, including the 
credibility, at least the perceived credibility, of NATO's 
force posture decisions, and that leaves me concerned. And 
certainly, as Derek pointed out, he will try and exploit any 
divisions within the Alliance that flow from Brexit or a 
division within the Alliance over how much support to provide 
Ukraine. My big fear is that he will interpret a reinforcement 
of NATO's eastern frontier with no change in the NATO-Ukraine 
relationship as basically a green light to press further on 
into Ukraine.
    Senator Kaine. Let me ask a question so that I will sound 
smarter at my next Armed Services Committee hearing. On that 
committee, I am always digging into our folks over cyber 
issues. I do not really think we have got a clearly articulated 
cyber doctrine in this country in terms of what is deterrence, 
do we have a publicly announced posture of doing X if somebody 
does Y, and if you do not have a publicly announced posture, 
you do not have a deterrence doctrine. I think all kinds of 
questions. What does it mean to be, quote, under attack? What 
is war in the cyber domain? I do not really think we have 
answered those things.
    But Russia has been pretty darned effective. They conducted 
cyber war during conflicts in Georgia and Ukraine. They had a 
role in sponsoring a statewide attack in Estonia in 2007. The 
Estonians did not invoke Article 5 because of perceived lack of 
support from NATO allies. At the time, NATO was not sure were 
they, quote, under attack. If they were, quote, under attack, 
was it a Kremlin-induced attack. And so there was a lot of 
paralysis/analysis going on.
    This summit is supposed to have NATO designating cyber as a 
fifth domain of warfare. But I would like your all's thoughts 
about, as we are going into NATO, what should we be trying to 
achieve in Warsaw with respect to, A, cyber being a fifth 
domain of warfare but, B, really trying to hammer down on 
doctrine because the NATO nations have a combined capacity that 
is massive. Russia has got a capacity. They are good at this 
and they use it. We have a combined capacity. I am not sure we 
are harnessing it, and I think we are somewhat paralyzed about 
how to use it. And I would love your thoughts about that.
    Mr. Brzezinski. You are absolutely right that Russia and 
other adversaries are much more sophisticated, much more 
experienced in the use of cyber as an element of hybrid, 
multifaceted strategies to pursue their aggressions. You could 
have mentioned also the cyber attack against Estonia being the 
first large-scale cyber attack.
    It is good that NATO is moving forward with the development 
of a doctrine to guide the cyber dimension of its operations. I 
think it is good the NATO has a cyber center. We have to 
incorporate this dimension of warfare into NATO operations.
    With that said, I think for the foreseeable future cyber 
activities are really going to be in the realm of NATO member 
states rather than the Alliance as a whole. Just as the way we 
have tank divisions that are U.S. divisions and are allocated 
to a NATO operation, cyber operations are not probably going to 
be conducted out of NATO headquarters in Brussels for a number 
of reasons. NATO will not, for a long while, have the personnel 
necessary for that. It will not have the computer set-ups for 
that, and it probably will not come to full agreement on 
exactly what to do.
    I am not too worried about that because during the Cold 
War, we had lots of elements of a comprehensive Western 
strategy, of which NATO was a lead player, a partial player and 
not much of a player at all. The latter two will be the likely 
direction cyber warfare plays in the West's response with the 
threats, for example, from Russia. It will remain primarily a 
dominion of a national armed force rather than the Alliance. It 
will not be like AWACS. It will be more like a national 
contribution to an Alliance operation.
    Mr. Chollet. Very briefly, and I concur with all of that. 
Last week, at the defense ministerial, they announced that 
cyber would become an operational domain. They said that a 
cyber attack can be considered an Article 5 attack. That will 
help within NATO for better coordination, for better planning, 
for greater management of resources, and that is all good, but 
I think the caveat that Ian has mentioned is very important, 
which is it will probably mainly in the national realm.
    However, this is also an area where NATO-EU cooperation 
could be important and particularly when we think of 
resilience. So when there is an attack, it is one thing to 
understand what has happened and respond to it in some way, but 
then there is also the resilience, getting the systems back 
online. And I think this is an area where NATO could explore 
that further. And since it is not a purely military answer--it 
is something that involves other realms where it may be more 
appropriately done in the EU context - it is where NATO and the 
EU can work together, which is yet further reason why we do not 
want the EU mired in another crisis for the next 2 years.
    The Chairman. Thank you. Thank you very much.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Let me first draw a premise for my question, so you 
understand where I am coming from.
    So of NATO's 28 member states, only five are meeting or 
exceeding the 2 percent GDP defense spending for support of the 
Alliance, which leaves the United States spending about 75 
percent of the military spending for all NATO members.
    At the last summit in Wales, 28 members agreed on three 
main outcomes: enhancing readiness and collective defense in 
response to Russian aggression; increasing defense spending and 
boosting military capabilities; and third, boosting NATO's 
support for partner countries outside the Alliance.
    And these main outcomes were a recognition of several 
driving forces. First, Putin had already gained control, from 
my perspective, of the narrative and successful international 
intervention in Georgia, was in the process of repeating this 
in the Ukraine; and second, fear in Europe among our friends 
and our allies alike that commitments are not necessarily 
always going to be steadfast, as is exhibited in the context of 
Ukraine where our commitments were enshrined in the Budapest 
Agreement and memorandum.
    So my question is--and in fact, it was not until Congress 
passed strong new sanctions legislation against Russia that 
Putin had any indication that the United States would be an 
obstacle to his ambitions, either personal or nationalistic.
    So in my view, the U.S., and NATO by extension, should be 
thinking about what Putin's reaction will be but more focused 
on registering what NATO will not tolerate at the end of the 
day. In essence, how do we go from merely defense to 
deterrence? Because when we have seen actions taken--all right, 
Ukraine was not a NATO member, but I get concerned that the 
message being sent is that what we will do in response to 
Russian aggression is signaling to the Russians that they can 
be more and more aggressive in Putin's grand design.
    So what is it that NATO needs to do to move from just 
defense, which is important, but also to a sense, a more 
muscular sense, of deterrence? How do we ultimately prepare? 
How does NATO prepare for the out-of-the-norm actions of an 
irregular military action, as we saw in the Ukraine? And what 
is our comprehensive ability to deal with that? Those are some 
of my key concerns because if we are doing 75 percent, we want 
everybody to step up, but in the interim, Russia feels that it 
can continue to make these incursions without real consequences 
other than some sanctions, which are important. You know, I was 
one of those who tried to lead on that. But it just seems to me 
that NATO needs to have both in its defense posture, through 
its diplomacy, through a whole host of things a more robust 
sense of deterrence, not just simply defense. Could you speak 
to that?
    Mr. Chollet. Sure, Senator, I can take the first crack.
    I completely agree with you that we need to move into a 
strong deterrence mode right now. I think there are multiple 
components of that. One starts with presence and posture. Being 
in particularly those most vulnerable states, particularly in 
Poland and the Baltics, is very important. There is going to be 
a question on numbers, as Ian has raised, whether we have 
enough there. But it is very important that those forces are 
warfighting forces. They are forces that can get into the fight 
in hours, not days or weeks. They are forces that have the 
capability both in terms of the lethal capability but also the 
ISR and the resupply to be able to be in that fight. They need 
air defense as well. So I think that is very, very important.
    Secondly, planning----
    Senator Menendez. But that is not present right now.
    Mr. Chollet [continuing.] No. Well, hopefully in Warsaw 
there will be a decision to ensure that that is present. And 
some of that is also what the quadrupling of U.S. defense 
spending in Europe is going to be towards as well. So it is not 
present now. It needs to be, and hopefully in Warsaw we will 
have good news.
    Second is planning. We need to do greater planning for all 
sorts of contingencies in Europe. That planning was the other 
thing that had atrophied in the 20 years since the end of the 
Cold War. And the U.S. is doing its own planning, but also it 
needs to be NATO planning for various contingencies, some of 
which you discussed.
    And then third is procedure, ensuring that military 
authorities and the political leaders in Brussels have the 
right procedures in place to be able to make quick decisions. 
And I know that is a very difficult issue to get at because it 
is about ultimately political control and how much you want to 
pre-delegate to military leaders. There has been some modest 
progress over the last several years in that realm, but I think 
it is something we need to explore further at Warsaw.
    Mr. Brzezinski. You asked the ultimate question about 
deterrence. I was listening to Derek, and I agree with 
everything he says. What I would add is that the key element of 
deterrence is your ability to exhibit, demonstrate steely 
determination. And in the case of Russia, I do not think the 
West has exhibited steely determination against the aggression 
and provocative actions it has taken.
    When Russia invaded Ukraine, we should have immediately 
mobilized and moved forces out to the Baltics and to Poland and 
to the Black Sea. We should have imposed immediately much 
harsher sanctions, sanctions that would have had some blowback, 
but that would have exhibited in itself determination to fully 
leverage that dimension to impose high costs on the aggressor.
    The problem with the West's policy over the last 2-3 years 
in response to Russia is that we have had an incrementalist 
approach, slowly ratcheting up our presence levels and our 
sanctions. We went through several iterations of sanctions, and 
I would argue they are not even as powerful as they should be. 
They should be sectoral sanctions. We have deployed largely 
U.S. company-level elements to central Europe, not battalions, 
not brigades, elements that the Russians knew they could 
overrun anytime.
    With Ukraine, our assistance has been half-hearted. They 
have been begging for lethal assistance for 2 years. The West 
still balks on that. This communicates a lack of resolve to the 
Russians and gives someone like Putin a feeling that he can 
continue to push on. So decisiveness and speed and leveraging 
our advantages, which in our case I believe includes the 
respect that even the Russian general staff has for U.S. 
forces, using our economic leverage--we have a 15 to 2 economic 
advantage in terms of GDP of the United States and Europe 
against Russia, $30 trillion versus $2 trillion. We are not 
leveraging that as we should. We should leverage it 
immediately. That kind of speed of response reflects 
determination and I think would have registered more profoundly 
within Moscow's decision-making circles. If we had done that, 
we probably would not be in as deep of a mire as we are today.
    Senator Menendez. Well, I will just close by saying the 
sooner we exhibit that steely determination, the better off we 
will collectively be.
    Thank you both.
    Senator Cardin [presiding]. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman, and thank you 
both for being here.
    Before I get into my questions, I wanted to just follow up 
on that comment, Mr. Brzezinski, because I do not disagree with 
what you are saying. I think steady, quick resolve is very 
important. But how would you have suggested we should have 
dealt with the Europeans who were reluctant on the lethal 
weapons issue? Listening to the French and the Germans talk 
about their response on Russia's invasion of Ukraine, they were 
very reluctant. Are you suggesting that we should have gone 
ahead and provided those weapons despite the concerns of the 
Europeans?
    Mr. Brzezinski. Yes. The problem with seeking complete 
unity sometimes means you are diluting the effect of your 
response. So sometimes you have to break out of 100 percent 
unity. You seek and go with coalitions that would be willing to 
act together. It is my assessment that we would have had a 
number of Europeans who would have been willing to work with us 
to arm the Ukrainians from the start. We should have done that, 
and I believe the rest would have followed.
    Senator Shaheen. Let me thank you both for your open letter 
in support of Montenegro's accession to NATO. And can you talk 
a little bit, both of you, about what you see are the benefits 
of their joining NATO and whether this sends any kind of a 
message to the Russians that is helpful?
    Mr. Chollet. Senator, I think that Montenegro has been a 
partner of ours for many years. They have contributed to NATO 
missions. They have worked alongside the United States military 
in difficult places. They are a key player within the Balkans, 
and the Balkans, as you know very well, is a region that is 
still struggling, and I think having another member of NATO 
from that region would be very important. And Montenegro, over 
the past several years, when I was in government and worked 
very closely with their defense minister and other senior 
folks, has made great strides in addressing some of the 
concerns that the United States and others had about their 
readiness to be a full member of NATO. And they deserve great 
credit. And the parliament, just in the last week, has yet 
again endorsed their entry into NATO.
    So I think one cannot overstate what Montenegro will bring 
to our collective defense, but I think certainly having it a 
part of the member states and as well as the signal it sends to 
other aspirant countries and also to Russia and others who may 
want to have a veto over what NATO may do is very, very 
important for the Warsaw Summit. If we had had more time before 
Wales, I think we might have been able to get it done before 
the Wales Summit. That is why I am very glad and very hopeful 
that it will be done this year, if the administration can get 
the paperwork up to you all and hopefully the Senate could be 
able to act before the end of the year.
    Senator Shaheen. Thank you.
    I want to pick up on Senator Kaine's comments about cyber 
because I certainly agree with him that we do not seem to have 
a uniform strategy around our response on cyber.
    And I had the opportunity to visit Estonia back in March 
and see the Cyber Center of Excellence there that has been 
accredited by NATO and was very impressed with the kinds of 
work that they are doing and the research that I think then is 
available to all of the NATO members.
    So can you talk about how important that kind of a center 
is to developing the capacity that NATO needs as they are 
looking at the challenges they are facing today compared to, 
say, 20 or 30 years ago?
    Mr. Brzezinski. I think it is very important, and I commend 
the Estonians for taking the leadership on this position. They 
have been some of the most adept at leveraging the commercial 
and social capabilities that come with the Internet and other 
elements of cyber.
    Yes, it is important to have a center of excellence. It is 
important for NATO to give emphasis, as it is now, to 
developing and deploying cyber capabilities and doctrines. The 
Alliance's designation of cyber as a warfare domain is a needed 
step., That will help ensure continuity and consistency and a 
synchronization of national efforts in the cyber domain. This 
is important because it is very easy for nations who are 
pursuing national approaches to cyber to do so in very 
different, in not conflicting, ways--in large part because this 
is some of the most secretive dimensions of warfare. It is very 
unlikely, I think, that everyone in NATO is going to have the 
same outlook and also same capacities and same capabilities in 
the cyber domain simply because it is not a bullet. It is not a 
rifle. The classified, secret character of this domain will 
make it a challenge to ensure full continuity of cyber 
operations across NATO allies.
    So with that said, I will just reiterate what I said 
earlier which is that it is important that NATO do this. It 
needs to drive forward. The more consistency and continuity and 
more assured capability we have across the Alliance, the 
better, but it is most likely that this is going to remain 
primarily in the realm of the most edgy stuff. It is going to 
remain within the national domains.
    Senator Shaheen. And I think that was clear as the result 
of what I saw there at the center. But the fact that they are 
doing work that can then be shared with other countries within 
NATO seems to me one of the really important aspects of what 
NATO can provide on the cyber issue. Thank you.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you. Thank you very much.
    Just to follow up on Senator Shaheen's comment relative to 
the lethal weaponry to Ukraine, I would just be interested, Mr. 
Chollet, in your response though it does not matter now in some 
ways, although I will say 35 Ukrainians died last month. 40,000 
troops are amassed, both regular and irregular, in eastern 
Ukraine. They are killing Ukrainians. And I just would love to 
hear what your response to that would be. I know there are 
differing opinions.
    Mr. Chollet. Sure, I am happy to, Senator.
    When I served in government, I was for lethal assistance to 
Ukraine, but I also do think it is important to put it in 
context. The United States has provided around $600 million in 
security assistance to Ukraine since 2014. That is compared to 
about $10 million or so that we gave to Ukraine in 2013. So 
that is a pretty significant up-tick. And that is going to 
training and reforming the Ukrainian military, which needs a 
lot of help. It is not going to lethal assistance.
    The Chairman. And we support that effort, but the lethal 
weaponry----
    Mr. Chollet. Understood, yes. When I served in government 
and now that I am out of government and able to speak for 
myself, I support lethal assistance. I know that President 
Poroshenko will be attending the Warsaw Summit, and there will 
be a meeting with him with the North Atlantic Alliance there, 
and that is very important. NATO has made some decisions to 
augment its own effort to help reform the Ukrainian military. 
It is very important for us to have the Ukrainian military get 
up to NATO standards for a lot of reasons because it makes it 
easier to partner, but also it helps their professionalization 
to deal with the corruption problems that the Ukrainian 
military has as well. So I think that is all very, very 
important.
    I still actually think the lethal assistance issue is still 
relevant today, and I am hoping my former colleagues in 
government are still taking a close look at that.
    The Chairman. Well, there is an election taking place and 
things may change in January.
    I do want to acknowledge, as the ranking member did, the 
Ambassador from Montenegro. He sat expressionless when you all 
were talking about his country's accession to NATO. I thought 
he would smile, but he did not. Now he is smiling.
    I want to thank you both for your testimony.
    I just will say this. I think that all of us, I mean, 
everybody on this committee, knows the importance of NATO. I 
think one of the greatest threats to NATO is when people begin 
to realize that maybe it is not a true alliance. And I just 
hope that in Warsaw there is some commitment demonstrated, 
especially by our European partners. I think everybody 
understands we are very committed. We are more than committed.
    But I have to tell you it is so frustrating. We have been 
talking about--Madeleine Albright was here 4 years ago talking 
about this and was concerned about it when she was Secretary of 
State. And it just does not change. And it is almost like we 
want it to be a strong alliance so badly we continue pushing.
    And I appreciate what you mentioned the 20 percent going to 
upgrading, and obviously you can spend 2 percent and it will 
all be on salaries and take you nowhere. And I think the 
qualitative changes are important, and I applaud those.
    But I just hope that our NATO friends realize the 
frustration that is mounting as we deal with our own economic 
issues, as we deal with our own indebtedness and the 
realization more and more by people that most of the countries 
are not pulling their load and they depend so heavily upon us, 
on the other hand, for their security.
    So, anyway, we thank you all for highlighting the many 
things you did today. You are outstanding witnesses. Thank you 
for your service to our country.
    I do not know if our ranking member wants to close with 
anything.
    Senator Cardin. I just join you again. I thank both our 
witnesses for their contributions.
    I think the point that you made, Mr. Chairman, is shared. 
NATO is extremely important but it is an alliance, and if it 
does not act as an alliance, if there is not a shared 
commitment, then it is not as strong as it needs to be. And the 
challenges today are on two fronts. There are more than two 
fronts, but two major fronts, both of which are extremely 
serious: Russia and terrorism. And the Alliance needs to be as 
strong as it must be, and it is not at its full potential, and 
it has got to improve.
    The Chairman. Thank you.
    If you could, the record will be open until the close of 
business Friday. I know you have all done this before. And 
please, if you could, answer fairly promptly any written 
questions that come in.
    Thank you again for your patience on the front end and for 
sharing your wisdom with us today.
    And with that, the meet is adjourned.
    [Whereupon, at 12:02 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
